Before the Committee on Energy and Commerce
Subcommittee on Energy and Air Quality
U.S. House of Representatives




                          Pipeline Safety:
For Release on Delivery
Expected at
10:00 a.m. EDT
Thursday
April 27, 2006
CC-2006-039
                          Progress and
                          Remaining Challenges



                          Statement of
                          Theodore Alves
                          Principal Assistant Inspector General for
                                Auditing and Evaluation
                          U.S. Department of Transportation
                       Summary of Hearing Statement
The Office of Pipeline Safety (OPS) is making good progress in implementing congressional
mandates and improving pipeline safety. I would like to briefly summarize my major points.
Operators are identifying integrity threats and making timely repairs. Although
operators have not yet fully implemented their Integrity Management Programs (IMP),
preliminary indications show that the baseline integrity assessments of hazardous liquid and
natural gas transmission pipelines are working well. In our current review of integrity threats
to hazardous liquid pipelines, we found that operators had repaired all 409 threats we
examined, with approximately 98 percent of the repairs having been completed on time.
However, pipeline operator reports contain errors and OPS needs to work with
operators to improve their reporting. Six of the seven hazardous liquid pipeline operators
we visited had errors in their annual reports. OPS is taking steps to improve the accuracy of
operator annual reports but needs to verify the accuracy of reported threat data during
integrity management inspections. Inaccurate reports degrade OPS’s ability to analyze
integrity threats, identify important trends, and focus limited inspection resources.
OPS’s integrity management inspection program is helping operators comply with the
IMP requirements. As of December 2005, OPS and its state partners had conducted one or
more integrity management inspections for over 86 percent of the 249 hazardous liquid
pipeline operators. We also have seen evidence that OPS’s enforcement program is helping
to improve pipeline safety.
Initiatives are underway to establish IMPs for natural gas distribution pipelines. OPS,
its state partners, and a broad range of stakeholders agree that all gas distribution pipeline
operators should implement IMPs. OPS is drafting a rule requiring IMPs for all gas
distribution operators and plans to have the final rule issued in mid-2007. It expects
operators of natural gas distribution pipeline systems to develop integrity management plans
during 2008 and begin implementing those plans in 2009.
OPS and TSA need to establish their respective pipeline security roles and
responsibilities. In September 2004, the Departments of Transportation and Homeland
Security signed a Memorandum of Understanding (MOU) to improve their cooperation and
coordination. Now OPS and the Transportation Security Administration (TSA) need to spell
out their roles and responsibilities at the operational level in an annex to the MOU. A lack of
clearly defined roles among OPS and TSA at the working level could lead to duplicating or
conflicting efforts, less than effective intergovernmental relationships, and—most
importantly—the potential for an uncoordinated response to a terrorist attack.
The Secretary’s waiver authority for responding to disasters may need to be
strengthened. OPS took an active role in responding to and recovering from Hurricane
Katrina disruptions to the pipeline system. By law, the Secretary of Transportation is
authorized to grant waivers of pipeline safety requirements only after public notice and an
opportunity for a hearing. It may not always be possible for OPS and pipeline operators to
work around waiver requirements. Thus, Congress should consider whether the Secretary’s
waiver authority for responding to a disaster involving pipeline transportation needs to be
strengthened.
Mr. Chairman, Ranking Member, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the progress and remaining
challenges in strengthening pipeline safety. We have done a great deal of work
over the years evaluating the Department of Transportation’s (DOT) efforts to
improve pipeline safety and have issued a number of reports and testified several
times before this Subcommittee and other congressional subcommittees about
progress and challenges the Department and industry have faced.

The pipeline infrastructure consists of an elaborate network of more than 2 million
miles of pipeline moving millions of gallons of hazardous liquids and more than
55 billion cubic feet of natural gas daily. The pipeline system is composed of
predominantly three segments—hazardous liquid transmission pipelines, natural
gas transmission pipelines, and natural gas distribution pipelines—and has about
2,200 1 natural gas pipeline operators and 250 hazardous liquid pipeline operators.

Within the DOT’s Pipeline and Hazardous Materials Safety Administration
(PHMSA), the Office of Pipeline Safety (OPS) is responsible for overseeing the
safety of the Nation’s pipeline system. This oversight is important because
pipelines, while fundamentally a safe way to transport these inherently dangerous
resources, are subject to forces of nature, human actions, and material defects that
can cause potentially catastrophic events. OPS sets safety standards that pipeline
operators must meet when designing, constructing, inspecting, testing, operating,
and maintaining their pipelines. In general, OPS is responsible for enforcing
regulations over interstate pipelines and certifies programs the states implement to
ensure the safety of intrastate pipelines.

Today, I would like to discuss three major points regarding pipeline safety:

      • Progress made in implementing integrity management program (IMP)
        requirements and the challenges that remain.

      • Initiatives underway to strengthen the safety of natural gas distribution
        pipeline systems.

      • Need for clearer lines of authority to address pipeline security and disaster
        response.

Before I discuss these points, I would like to briefly summarize the considerable
progress we have seen since we first testified on pipeline safety over 6 years ago.
This progress is the direct result of congressional attention, including that of this
Subcommittee; high-level management attention under the leadership of Secretary

1
    Of the 2,200 operators of natural gas pipelines, there are approximately 1,300 operators of natural gas distribution
    pipelines and 880 operators of natural gas transmission pipelines.


                                                                                                                      1
Mineta; and OPS’s priority to improve its pipeline safety program. This progress
started under what was then the Research and Special Programs Administration
and continues today under PHMSA, which was created under the Norman Y.
Mineta Research and Special Programs Improvement Act. Even during this
reorganization, OPS was able to sustain its progress in improving pipeline safety.

As an indication that we were seeing clear signs of improvement, we removed
pipeline safety from our DOT top management challenge report in 2002. As we
testified before the House Subcommittee on Highways, Transit, and Pipelines on
the reauthorization of the pipeline safety program in February 2002, OPS was
making progress in implementing prior congressional mandates and our
recommendations. However, with 8 mandates open from 1992 and 1996, plus an
additional 23 mandates enacted in the Pipeline Safety Improvement Act of 2002, a
lot of work remained.

Our June 2004 report, 2 “Actions Taken and Needed To Improve Pipeline Safety,”
recognized OPS’s continued progress in clearing out most, but not all, of the
congressional mandates enacted in 1992 and 1996. This included completing the
development of the national pipeline mapping system and issuing regulations
requiring IMPs for operators of hazardous liquid and natural gas transmission
pipelines. These results were included in our last testimony before this
Subcommittee in July 2004.

In our October 2005 report, 3 we again recognized that OPS’s progress in closing
out the long-overdue mandates and National Transportation Safety Board safety
recommendations. Currently, there is only one open mandate from 1992, and OPS
expects to close it by the end of 2006 through a rulemaking establishing safety
regulations for hazardous liquid gathering lines and low stress transmission
pipelines. The importance of completing and finalizing this rule cannot be
overstated as it is pertinent to the low stress transmission pipeline that failed just
last month on the North Slope of Alaska. As a result of the failure, an estimated
200,000 gallons of crude oil spilled, impacting the Arctic tundra and covering
approximately 2 acres of permafrost.

All of the mandates from 1996 are closed, and OPS has completed actions on
18 of the 23 mandates from the 2002 Act. Three of these open mandates are not
yet late, since the congressional deadlines for completing them have not come due.

Clearly, OPS is making good progress in implementing congressional mandates
and improving pipeline safety, but it is not at an end state because operators are in

2
    OIG Report No. SC-2004-064, “Actions Taken and Needed for Improving Pipeline Safety,” June 14, 2004.
3
    OIG Report No. SC-2006-003, “Actions Taken and Needed in Implementing Mandates and Recommendations
    Regarding Pipeline and Hazardous Materials,” October 20, 2005.         See OIG reports on this website:
    www.oig.dot.gov.


                                                                                                         2
the early stages of implementing IMPs. I would now like to turn to my three
points on pipeline safety.

Progress Made in Implementing Integrity Management Program
Requirements and the Challenges That Remain. The most important
congressional mandates required IMPs for operators of hazardous liquid and
natural gas transmission pipelines. Operators are required to identify their
pipelines in or potentially affecting high-consequence areas (HCA) 4 and assess
their pipelines for risk of a leak or failure using smart pigs 5 or equivalent
inspection methods. Hazardous liquid pipeline operators were first to come under
the new IMP requirements, starting in 2001. Natural gas transmission pipeline
operators followed 3 years later. Operators were also required to categorize and
repair integrity threats within specified timeframes and to report these threats to
OPS.

Although operators have not yet fully implemented their IMPs, preliminary
indications show that the baseline integrity assessments of hazardous liquid and
natural gas transmission pipelines are working well, and there was clearly a need
for such assessments because the assessments led operators to identify and correct
a significant number of integrity threats. This is a key outcome as the IMP is the
backbone of OPS’s risk-based approach to overseeing pipeline safety.

According to data provided by OPS, hazardous liquid and natural gas transmission
pipeline operators have identified all of their HCAs and are well on their way
toward completing their baseline assessments on time. As of December 31, 2004
(the latest data reported), hazardous liquid operators had completed baseline
assessments of approximately 95 percent of their pipeline systems in or potentially
affecting HCAs, even though they have until 2009 to do so. In comparison, at the
end of 2005, natural gas transmission pipeline operators had completed around
33 percent of their baseline assessments of pipelines in or potentially affecting
HCA pipeline systems, but they have until 2012 to complete the assessments.

Operator baseline assessments have been instrumental in helping identify and
repair a significant number of integrity threats. In our current review of integrity
threats to hazardous liquid pipelines, we found that operators had repaired all
409 threats we examined, with approximately 98 percent of the repairs completed
within established IMP timeframes or OPS-approved extensions. OPS has also
made noticeable progress in overseeing IMP implementation through its integrity
management inspection program, and we have seen examples of OPS directing
operators to take corrective actions when violations were found. As of December
4
    HCAs include unusually sensitive areas (defined as drinking water or ecological resource areas), urbanized and other
    populated places, and commercially navigable waterways.
5
    A “smart pig” is an in-line inspection device that traverses a pipeline to detect potentially dangerous defects, such as
    corrosion.


                                                                                                                         3
2005, OPS and its state partners had conducted one or more integrity management
inspections of 86 percent (215 of 249) of hazardous liquid pipeline operators.

However, we have concerns with the reports submitted to OPS on integrity threats.
Specifically, six of the seven hazardous liquid pipeline operators we visited had
errors in their reports. Reporting errors were due to a variety of factors, such as
the submission of preliminary numbers, of data outside the reporting period, or of
threats involving non-HCA pipeline segments. OPS is taking steps to improve the
accuracy of operator annual reports and to help operators better understand the
reporting requirement. But OPS needs to review integrity threat data and related
documentation as part of its integrity management inspection program. Our
primary concern is that OPS’s risk-based approach to safety relies on accurate
reporting from operators. Inaccurate reports degrade OPS’s ability to analyze
integrity threats, identify important trends, and focus limited inspection resources
on areas of greatest concern.

Initiatives Underway To Strengthen the Safety of Natural Gas Distribution
Pipeline Systems. In our June 2004 report, we recommended that OPS require
operators of natural gas distribution pipelines to implement some form of pipeline
integrity management or enhanced safety program with the same or similar
integrity management elements as the hazardous liquid and natural gas
transmission pipelines.

Since 2004, there has been a sea change in the industry toward integrity
management for natural gas distribution pipeline systems. OPS, in partnership
with the industry stakeholders, is developing a plan to strengthen the safety of
natural gas distribution pipeline systems using integrity management principles.
So far, the process for developing a natural gas distribution IMP has worked well,
and indications are that progress will continue.

Although much has been accomplished, much more remains to be done before
distribution IMPs can be implemented. OPS, its state partners, and a broad range
of stakeholders have decided that all distribution pipeline operators, regardless of
size, should implement an IMP. OPS is drafting a rule requiring integrity
management for all gas distribution operators and plans to have the final rule
issued in mid-2007. It expects operators of natural gas distribution pipeline
systems to develop integrity management plans during 2008 and begin
implementing those plans in 2009.

Need for Clearer Lines of Authority To Address Pipeline Security and
Disaster Response. Not only is it important that we ensure the safety of the
Nation’s pipeline system, but we must also ensure the security and recovery of the
system in the event of a terrorist attack or natural disaster.



                                                                                  4
Since we last testified before this Subcommittee on the issue of pipeline security
in July 2004, DOT and the Department of Homeland Security (DHS) signed a
Memorandum of Understanding (MOU) to improve their cooperation and
coordination in promoting the safe, secure, and efficient movement of people and
goods throughout the U.S. transportation system. Finalizing the MOU was the
first critical step in what is a very dynamic process. However, OPS and the
Transportation Security Administration (TSA) still need to spell out their roles and
responsibilities at the operational level in an annex to the MOU. A lack of clearly
defined roles among OPS and TSA at the working level could lead to duplicating
or conflicting efforts, less than effective intergovernmental relationships, and—
most importantly—the potential for an uncoordinated response to a terrorist attack.

With respect to natural disasters, OPS took an active role in responding to and
recovering from Hurricane Katrina disruptions in the pipeline system. What we
learned from this disaster is that, by law, the Secretary of Transportation is
authorized to grant waivers of pipeline safety requirements only after public notice
and an opportunity for a hearing. However, with an emergency like Katrina, this
would not have been practical. Katrina disruptions to the pipeline system caused
the pipeline operators to switch their operations from automated to manual. When
responding to Katrina, OPS had to send its inspectors out to remote pumping
stations immediately following the storm to personally ensure that the pipeline
operator personnel were technically qualified to operate the pipeline systems
manually and keep the fuel flowing.

It may not always be possible for OPS and pipeline operators to work around
waiver requirements, as occurred in this case. Therefore, Congress should
consider whether the Secretary’s waiver authority for responding to a terrorist
attack or disaster involving pipeline transportation needs to be strengthened.

                     SPECIFIC OBSERVATIONS
I.  Progress Made in Implementing Integrity Management
Program Requirements and the Challenges That Remain
Operators Are Making Significant Progress in Fulfilling IMP Requirements.
According to data provided by OPS, hazardous liquid and natural gas transmission
pipeline operators have made significant progress in recent years in implementing
key elements of their IMPs. For example, according to OPS, both pipeline
segments have identified all of their HCAs. Operators are also well on their way
toward completing their baseline assessments of pipeline systems in or affecting
HCAs. As Table 1 indicates, operators have completed baseline assessments on
approximately 77 percent of their pipeline systems as of December 31, 2004, with



                                                                                  5
hazardous liquid and
natural gas transmission                          Table 1. Completed Baseline Assessments
segments       completing                                 (As of December 31, 2004)
approximately 95 percent
and       18      percent,                                                           Baseline      %
respectively. This latter                      Operator              HCAs*         Assessments* Completed
figure jumps to 33 percent                   Hazardous
                                                                     71,903              67,982              95%
                                             Liquid
when 2005 assessment
                                             Natural Gas
numbers are added.6                                                  21,727               3,947              18%
                                             Transmission
Although hazardous liquid        Total            93,630     71,929       77%
and       natural       gas
transmission       pipeline * Measured in pipeline miles
operators     are     only
required to assess pipelines in or potentially affecting HCAs, some operators—on
their own initiative—have extended their baseline assessments to some of their
non-HCA pipeline segments. For example, hazardous liquid pipeline operators
have conducted baseline assessments on over a quarter of their non-HCA pipelines
as of December 31, 2004.

Large Numbers of Integrity Threats Are Being Identified and Repaired on
Time, Although Operator Annual Reports Need Improvement. According to
OPS, tens of thousands of hazardous liquid pipeline integrity threats have been
discovered and repaired as of the end of 2004. Approximately one quarter of these
threats fell into time-sensitive repair categories of immediate, 60-day, or 180-day.
The majority of threats were categorized as “other,” which are not considered
time-sensitive. In our current review of integrity threats to hazardous liquid
pipelines, we found that operators had repaired all 409 threats 7 we examined, with
approximately 98 percent of the repairs completed within established IMP
timeframes or OPS-approved extensions.

While recognizing IMP success in identifying and repairing integrity threats, we
have concerns with the reports submitted to OPS on integrity threats. OPS uses
the data in these reports, much of which is available to the public, in a variety of
ways, including identifying important trends, prioritizing integrity management
inspections, and monitoring industry performance and regulatory compliance.
Yet, our current review found reporting errors in the integrity threat data submitted
by six of the seven operators we visited. We asked each of the seven operators to
re-examine the 2004 threat data that they reported to OPS. Six of the seven

6
    We do not have 2005 data for hazardous liquid pipeline operators since their annual reports are not due to OPS until
    June 15, 2006. In comparison, natural gas pipeline operators were required to submit their 2005 data by
    February 28, 2006.
7
    Our sample of 409 threats was pulled from operator data bases, not from information reported to OPS.


                                                                                                                      6
operators acknowledged having made errors in their annual reports, in some cases
significant errors. For example, one operator’s numbers of immediate, 60-day,
and 180-day threats reported to OPS had to be increased by 49 percent (i.e., from
53 to 79). In a second example, the operator had to decrease his numbers by
41 percent (i.e., from 186 to 110).

These reporting errors were due to a variety of factors. For example, one operator
mistakenly reported preliminary pig data instead of actual numbers obtained from
subsequent excavation and repair work. A second operator reported integrity
threat data involving non-HCA pipeline segments. Other types of errors included
reporting data outside the 2004 reporting period and entering numbers relating to
pipeline mileage rather than integrity threats. Our primary concern is that OPS’s
risk-based approach to safety needs accurate reporting from operators. Inaccurate
reports hamper OPS’s ability to analyze threat data, identify important trends, and
focus limited inspection resources on areas of greatest concern.

OPS officials are taking steps to improve the accuracy of operator reports and to
help operators better understand new reporting requirements. OPS plans on
issuing new reporting guidelines by mid-2006, including clearer definitions of
each threat category. Starting in January 2006, OPS began posting operator
annual integrity threat reports to its public website as a means of providing
transparency and encouraging greater accuracy. While these efforts to improve
the accuracy of operator IMP reports should help, OPS needs to have operators
verify the accuracy of threat data contained in their earlier annual reports and
submit revised data if errors are found. OPS also needs to verify the accuracy of
the integrity threat data as part of its integrity management inspection program.

OPS Inspection and Enforcement Programs Are Helping Achieve Operator
Compliance With IMP Requirements. OPS has made progress in overseeing
IMP implementation through its inspection and enforcement programs. During
inspections for both hazardous liquid and natural gas transmission pipeline
operators, OPS and state inspectors look at whether operators: (1) perform a
thorough and effective review of pig results, (2) identify all integrity threats in a
timely manner, (3) remediate integrity threats in a timely manner, and (4) use the
appropriate repair or remediation methods. As of December 2005, OPS and its
state partners had conducted one or more integrity management inspections of
86 percent (215 of 249) of hazardous liquid pipeline operators. Even more
important, those operators inspected were responsible for approximately
98 percent of all pipeline miles in or potentially affecting HCAs. With respect to
natural gas transmission pipeline operators, which OPS only recently began
inspecting, OPS had completed inspections of 10 percent (11 of 110) of the
operators for which it is responsible as of March 2006.




                                                                                   7
During our current review of integrity threats, we found evidence of how the OPS
enforcement program is helping to improve pipeline safety. At one of the seven
operators we reviewed, OPS inspectors found that the operator had failed to
discover integrity threats (approximately 160) due to an error in analyzing pig
data. Although the operator had identified the error and had asked the pig vendor
to recalculate the data, subsequent repairs were not completed before an integrity
management inspection 2 months later. OPS directed the operator to make
necessary corrections and warned the operator that OPS would take enforcement
action should the operator not address the problem. The operator has since made
the necessary repairs.

OPS also took action against Kinder Morgan Energy Partners. On August 24,
2005, OPS issued a Corrective Action Order to Kinder Morgan in response to
numerous accidents in its Pacific Operations unit and designated the entire unit as
a “hazardous facility.” 8 The Corrective Action Order requires a thorough analysis
of recent incidents, a third-party independent review of operations and procedural
practices, and a restructuring of Kinder Morgan’s internal inspection program. On
April 10, 2006, OPS and Kinder Morgan entered into a consent agreement that
met all of the elements of the Order.


II. Initiatives Underway To Strengthen the Safety of
Natural Gas Distribution Pipeline Systems
OPS has implemented IMP requirements for hazardous liquid and natural gas
transmission pipelines. No similar requirements presently exist for natural gas
distribution pipelines, and we have recommended that some form of pipeline
integrity management or enhanced safety program be required. Since 2004, there
has been a sea change in the industry toward integrity management for natural gas
distribution pipeline systems.

The natural gas distribution system makes up over 85 percent (1.8 million miles)
of the 2.1 million miles of natural gas pipelines in the United States. Nearly all of
the natural gas distribution pipelines are located in highly populated areas, such as
business districts and residential communities, where a rupture could have the
most significant consequences.

When we testified in July 2004, our concern then was, as it is today, that the
Department’s strategic safety goal of reducing the number of
transportation-related fatalities and injuries was not being achieved by natural gas
distribution pipelines. In the 10-year period from 1996 through 2005, OPS’s data

8
    Normally OPS will designate pipeline segments immediately adjacent to a rupture a “hazardous facility.” This
    Corrective Action Order designated the entire Pacific Operations unit a “hazardous facility” because of OPS’s
    conclusion that the unit had systemic problems with its IMP.


                                                                                                               8
show accidents in natural gas distribution pipelines have caused more than
3.5 times the number of fatalities (173 fatalities) and nearly 4.0 times the number
of injuries (616 injuries) as the combined total of 48 fatalities and 156 injuries for
hazardous liquid and gas transmission pipeline accidents. In the past 5 years, the
number of fatalities and injuries from accidents involving natural gas distribution
pipelines has increased from 5 fatalities and 46 injuries in 2001 to 17 fatalities and
48 injuries in 2005. Given that most pipeline fatalities and injuries involve natural
gas distribution pipelines, OPS needs to ensure that it moves quickly to enhance
the safety of these pipelines.

Initiatives Leading up to the Development of a Natural Gas Distribution
Integrity Management Program. To close the safety gap on natural gas
distribution pipelines, we recommended in our June 2004 report on pipeline safety
that OPS require operators of natural gas distribution pipelines to implement some
form of pipeline integrity management or enhanced safety program with the same
or similar integrity management elements as those for hazardous liquid and natural
gas transmission pipelines.

In its fiscal year 2005 report, the Conference Committee on Appropriations
recognized the need for enhancements in the safety of natural gas distribution
pipelines and agreed with the findings of our June 2004 report that certain IMP
elements can readily be applied to this segment of the industry, such as developing
timeframes on how often inspections should take place and when repairs should be
made. The Committee directed OPS to submit a report detailing the extent to
which integrity management plan elements may be applied to natural gas
distribution pipeline systems to enhance safety. The report was submitted in
May 2005 with detailed specific milestones and activities, including the
development of requirements, guidance, and standards.

As part of the initiatives in collecting data to prepare the report for the Committee,
in December 2004, OPS held a public meeting on enhancing integrity management
of natural gas distribution pipelines. OPS invited our office to participate in the
meeting and present our views. At the meeting, we outlined three areas that in our
view were fundamental to integrity management: understanding the infrastructure,
identifying and characterizing the threats, and determining how best to manage the
known risks (i.e., prevention, detection, and mitigation). These three areas are
essentially the same as those underlying the natural gas transmission IMP and
would become the foundation for building a natural gas distribution IMP.

Identifying the Need for and Developing a Distribution IMP. In its report to
Congress in May 2005, OPS outlined the extent to which integrity management
plan elements could be applied to natural gas distribution pipeline systems to
enhance safety. A December 2005 report prepared by OPS, its state partners, and
a broad range of stakeholders concluded that all distribution pipeline operators,

                                                                                    9
regardless of size, should implement an IMP that includes seven key elements,
three of which are fundamental to integrity management: know the infrastructure,
identify the threats, and assess and prioritize risks. OPS is currently drafting a rule
to implement IMP requirements for operators of natural gas distribution pipelines.

With respect to identifying and characterizing threats, the December 2005 report
points out that “excavation damage poses by far the single greatest threat to
distribution systems safety, reliability, and integrity: therefore excavation damage
prevention presents the most significant opportunity for distribution pipeline
safety improvements.”

The source of excavation damage to distribution pipelines can be from anyone
who has a reason to dig underground, such as homeowners, landscapers, local
water and sewer departments or their contractors, cable companies, electric
companies, and owners and operators of distribution pipeline systems or their
contractors.

The December 2005 report also points out that what is needed to prevent
excavation damage to distribution pipelines in the first place is a comprehensive
damage prevention program that includes nine important elements, such as
enhanced communication between operators and excavators, partnership in
employee training, partnership in public education, and fair and consistent
enforcement of the law.

An important factor in preventing excavation damage is a well-established
one-call system that excavators must use by law before they dig in an area of a
pipeline. A one-call notification system is already in place and provides a
telephonic link between excavators and operators of underground pipeline and
facilities. The heart of the system is an operational center whose main function is
to transfer information from excavators about their intended excavation activities
to the operators of underground pipelines and facilities participating in the system.

To further enhance this service, the Federal Communication Commission
established a three-digit number—811—for one-call systems that excavators and
the public can use to easily connect to the appropriate one-call center. It is
anticipated that the 811 number will increase the use of the one-call system service
and help avoid excavation damage.             Under the Federal Communication
Commission rule, the 811 number must be used as the dialing code for one-call
centers by April 13, 2007. Currently, implementation lies at the state level, with at
least one center already accepting calls directed to 811.




                                                                                    10
We believe a comprehensive damage prevention program is needed as outlined in
the December 2005 report 9 and that Congress may want to consider legislation to
support the development and implementation of the damage prevention program
with special emphasis on effective enforcement.

III. Need for Clearer Lines of Authority To Address
Pipeline Security and Disaster Response
The attacks of September 11, 2001, and the devastation and destruction of
Hurricane Katrina, which hit on August 29, 2005, demonstrated the vulnerabilities
of the Nation’s critical transportation and energy infrastructure to catastrophic
events. What has become clear as a result of these events is the continuing need
for a well-defined, well-coordinated interagency approach for preparing for,
responding to, and recovering from such events.

DOT has the responsibility of working with other agencies to secure the U.S.
transportation system and protect its users from criminal and terrorist acts. In our
report “DOT’s Top Management Challenges” for FY 2005 and 2006, we discussed
the growing interdependency among Federal agencies in this area. The imperative
for DOT is to effectively integrate new security measures into its existing safety
regimen and to do so in a way that promotes stronger security without degrading
transportation safety and efficiency.

Initiatives Clarifying Security Responsibilities. Certain steps have been taken
to establish what agency or agencies would be responsible for ensuring the
security of the Nation’s critical infrastructure, including pipelines. For example,
in December 2003, Homeland Security Presidential Directive 7:

      • Assigned DHS the responsibility for coordinating the overall national effort
        to enhance the protection of the Nation’s critical infrastructure and key
        resources.

      • Assigned the Department of Energy the responsibility for ensuring the
        security of the Nation’s energy, including the production, refining, storage,
        and distribution of oil and gas.

      • Directed DOT and DHS to collaborate on all matters relating to
        transportation security and transportation infrastructure protection and to
        the regulation of the transportation of hazardous materials by all modes,
        including pipelines.



9
    The December 2005 report, “Integrity Management for Gas Distribution,” was prepared by OPS, its state partners,
    and a broad range of stakeholders.


                                                                                                               11
Although the Presidential Directive directs DOT and DHS to collaborate in
regulating the transportation of hazardous materials by all modes, including
pipelines, it is not clear from an operational perspective what OPS’s relationship
will be with TSA.

Identifying the Need for Clarifying Security Roles and Responsibilities. In our
July 2004 testimony, we reported that it was unclear which agency or agencies
will have responsibility for pipeline security rulemaking, oversight, and
enforcement and recommended that the delineation of roles and responsibilities
between DOT and DHS be spelled out by executing an MOU or Memorandum of
Agreement.

Since then, DOT and DHS signed a MOU in September 2004 to improve their
cooperation and coordination in promoting the safe, secure, and efficient
movement of people and goods throughout the U.S. transportation system.
Finalizing the MOU was the first critical step, but much more remains to be sorted
out between the two departments. For example, the delineation of roles and
responsibilities between OPS and TSA needs to be spelled out by executing a
security annex to the MOU specifically relating to pipelines.

In the October 2004 House Report 10 accompanying the Norman Y. Mineta
Research and Special Programs Improvement Act (Public Law 108-426), which
created PHMSA, the Committee strongly urged DOT and DHS to execute an
agreement clarifying the roles, responsibilities, and resources of the departments in
addressing pipeline and hazardous materials transportation security matters upon
establishment of the new agency. Today, this has still not been done.

Resolving pipeline security roles and responsibilities between OPS and TSA is
necessary to avoid, at the working level, duplicating or conflicting efforts, less
than effective intergovernmental relationships, and—most importantly—the
potential for problems in responding to terrorism. OPS already has a set of
well-established security requirements pre-dating September 11th that it oversees
and enforces for operators of liquid petroleum gas facilities. What is not clear in
this situation is whether oversight and enforcement remains with OPS or whether
it will be transferred to TSA.

The pipeline industry clearly supports the need for a security regimen but has
pointed out to us that it does not need two separate agencies overseeing two
separate sets of rules and that the issue of security roles and responsibilities needs
to be clarified and formalized.



10
     House Report No. 108-749, dated October 6, 2004.


                                                                                   12
We agree that the roles and responsibilities of OPS and TSA for pipeline
security-related subjects need to be clarified. These subjects include security grant
activities, emergency communication, rulemaking and adjudications, and the
oversight and enforcement jurisdiction of TSA and OPS inspectors.

Identifying the Need for Waiver Authority When Responding to Disasters. In
addition to security issues, the growing interdependency among Federal agencies
can be found in their response to catastrophic natural or man-made disasters. The
National Response Plan, adopted in December 2004, requires extensive
coordination, collaboration, and information sharing between Federal, state, local,
and tribal governments to prevent, prepare for, respond to, and recover from any
type of national incident, such as Hurricane Katrina.

We would like to recognize OPS’s efforts in preparing for, responding to, and
recovering from Hurricane Katrina disruptions on the pipeline system. Loss of
electrical power to their pumping stations forced three major pipeline operators to
shut down. This eliminated most sources of fuel to the entire Eastern seaboard
and led to a wide array of economic disruptions, including hoarding and severe
price spikes. OPS’s efforts immediately following Hurricane Katrina included,
among other things, deploying teams to move generators to pipeline pumping
stations so that the flow of petroleum products to the Southeastern and
Mid-Atlantic regions was restored.

When OPS was preparing for Katrina, a question was raised about whether the
Secretary had the authority to waive compliance with pipeline safety regulations.
By law, the Secretary may waive regulations but only after public notice and an
opportunity for a hearing. However, with an emergency like Katrina, this would
not have been practical. Katrina disruptions to the pipeline system caused the
pipeline operators to switch their operations from automated to manual. When
responding to Katrina, OPS had to send its inspectors out to remote pumping
stations immediately following the storm to personally ensure that the pipeline
operator personnel were technically qualified to operate the pipeline systems
manually and keep the fuel flowing. It may not always be possible for OPS and
pipeline operators to work around waiver requirements, as occurred in this case.

The economic disruptions from Katrina were felt immediately and notifying the
public and holding a hearing would have significantly delayed restoring the flow
of energy, causing severe economic consequences. Given the lessons learned
from Hurricane Katrina, Congress should consider whether the Secretary’s waiver
authority for responding to a terrorist attack or disaster involving pipeline
transportation needs to be strengthened.

Mr. Chairman, this concludes my statement. I will be pleased to answer any
questions that you or the other members might have.


                                                                                  13
